    Audit of NARA’s
   Photocopier Security


OIG Audit Report No. 11-07


      March 22, 2011
Table of Contents


Executive Summary ...................................................................................... 3

Background ................................................................................................... 5

Objectives, Scope, Methodology .................................................................. 6

Audit Results ................................................................................................. 7

Appendix A – Photocopiers With Hard Drives........................................ 17

Appendix B - Standard Form 120- Excess Property Report .................. 18

Appendix C - Acronyms and Abbreviations ............................................ 19

Appendix D - Management’s Response to the Report ............................ 20

Appendix E - Report Distribution List ..................................................... 21
                                                                          OIG Audit Report No. 11-07


Executive Summary

The National Archives and Records Administration (NARA) Office of the Inspector
General (OIG) performed an audit of NARA’s Photocopier Security. The objective of
the audit was to determine if appropriate security measures were in place to safeguard
and prevent inappropriate release of sensitive information and Personally Identifiable
Information (PII) residing on NARA photocopiers that contain hard drives. Specifically
our review focused on whether (1) NARA used photocopiers that contained hard drives
capable of retaining sensitive information and (2) actions taken by NARA to mitigate
risks posed by the potential exposure of this sensitive information were adequate.

An April 2010, CBS investigative news report exposed the potential privacy risks arising
from sensitive and PII information left on the hard drives of excessed photocopiers that
were not sanitized prior to disposal. When multiple copies of a document are made,
using a photocopier that has a hard drive, the document is scanned once and copies are
made from the file that has been saved on the hard drive. The residual data on the hard
drive can be accessed, potentially exposing sensitive or PII which could lead to identity
theft or fraudulent use of the information. The CBS news investigation found that hard
drives of disposed photocopiers contained a plethora of sensitive, confidential, and PII
data that was easily retrievable from the photocopier's hard drives.

Our audit found that opportunities exist to strengthen controls to ensure photocopier hard
drives are protected from potential exposure. Specifically, we found the following
weaknesses.

    •    NARA lacks appropriate controls to ensure all photocopiers across the agency are
         accounted for and that any hard drives residing on these machines are tracked and
         properly sanitized or destroyed prior to disposal.

    •    There are no policies documenting security measures to be taken for photocopiers
         utilized for general use nor are there procedures to ensure photocopier hard drives
         are sanitized or destroyed prior to disposal or at the end of the lease term.

    •    Photocopier lease agreements and contracts do not include a “keep disk” 1 or
         similar clause as required by NARA’s IT Security Methodology for Media
         Protection Policy version 5.1.

During the entrance conference for this review, management informed the OIG that they
were aware of the potential risks posed by not properly sanitizing photocopier hard drives
prior to disposal and had initiated action to address the risks. Specifically, in May 2010,
NARA’s Office of General Council (NGC) began efforts to identify photocopier

1
 “Keep Disk” clause is language within a contract that allows retention of a hard drive should it fail and
need to be replaced.
                                             Page 3
                          National Archives and Records Administration
                                                            OIG Audit Report No. 11-07


contracts and agreements across the agency in order to update them to include
appropriate security language. Photocopier contracts (whether they have a hard drive or
not) are being modified to contain a "keep your hard drive" clause in accordance with
section 6 of NARA's IT Security Methodology for Media Protection Policy version 5.1.
However, at the end of our fieldwork, NGC reported only 15 of the 79 agreements
identified by management have been modified.

This report contains seven recommendations for addressing our findings. The
recommendations in this report, upon adoption, will assist NARA in providing
appropriate administrative, technical, and physical safeguards over sensitive information
and PII as required by the Privacy Act.




                                        Page 4
                     National Archives and Records Administration
                                                               OIG Audit Report No. 11-07


Background

An April 2010, CBS investigative news report brought attention to the potential privacy
risks arising from the fact that photocopiers can store digital images of items copied on
internal hard drives. The investigation found disposed photocopiers contained a plethora
of sensitive, confidential, and PII data that was able to be retrieved from photocopier's
hard drives.
Since 2002, many photocopiers have been manufactured to contain a hard drive with the
capability of electronically storing images of documents copied, scanned, or emailed.
Usually when several copies of a document are made, the document is scanned just once
and the copies are made from the file that has been saved on the hard drive. The residual
data can be accessed by removing the hard drive from the photocopier and connecting it
to a PC. The hard drive requires special sanitization in order to mitigate the risk of
unauthorized disclosure of information and to ensure its confidentiality. NARA’s IT
Security Methodology for Media Protection Policy version 5.1 states that information
system media, which includes hard drives, must be sanitized prior to disposal or release.
Sanitization techniques including clearing, purging, and destroying media information
would prevent the disclosure of NARA sensitive information when the hard drive is
reused or disposed.

Safeguarding PII is important to protect individuals, maintain public trust and confidence
in an organization, and protect the reputation and any legal liability of an organization.
For Federal government agencies the Privacy Act of 1974 requires them to establish
appropriate administrative, technical and physical safeguards to ensure the security and
confidentiality of records and to protect against any anticipated threats or hazards to their
security or integrity which could result in substantial harm, embarrassment,
inconvenience, or unfairness to any individual on whom information is maintained.
NARA has responsibility to appropriately safeguard sensitive data and PII, including PII
on hard drives of photocopiers. PII retained on unprotected hard drives could potentially
be exposed and lead to identity theft or fraudulent use of the information. In May 2010,
NARA’s Office of General Council (NGC) began efforts to identify photocopier
contracts and agreements across the agency in order to update them to include
appropriate security language. Photocopier contracts (whether they have a hard drive or
not) are being modified to contain a "keep your hard drive" clause in accordance with
section 6 of NARA's IT Security Methodology for Media Protection Policy version 5.1.

The Acquisitions Services Division (NAA) within the Office of Administration (NA)
maintains responsibility for procuring and managing of general photocopiers across
NARA. According the Director of NAA, the Office of Presidential Libraries (NL) and
the Office of Regional Records Services (NR) have the authority to procure and manage
their own photocopiers.



                                         Page 5
                      National Archives and Records Administration
                                                            OIG Audit Report No. 11-07


Objectives, Scope, Methodology

The objective of this audit was to determine whether the appropriate security measures
were in place to safeguard sensitive information and PII residing on photocopier hard
drives upon disposal or while in possession of an outside vendor. Specifically our
review focused on whether (1) NARA used photocopiers that contain hard drives capable
of retaining sensitive information and (2) that actions taken by NARA to mitigate risks
posed by the potential exposure of this sensitive information were adequate. The audit
included photocopiers across all NARA offices. However, all audit work was performed
at Archives II in College Park, MD.

We examined applicable laws, regulations, and NARA guidance including (a) The
Privacy Act of 1974; (b) The Federal Information Security Management Act (FISMA) of
2002; (c) National Institute of Standards and Technology (NIST) Special Publication
800-88, Guidelines for Media Sanitization; (d) NARA Directive 1608 Protection of
Personally Identifiable Information (PII); (e) NARA’s IT Security Methodology for
Media Protection; (f) Supplement to NARA 202, Classified Information Security
Program Handbook; (g) Transmission of Electronic Media to NARA sites; (h) Asset
Management Team Media Tracking and Disposal Plan; (i) Supplement to NARA 241,
NARA Personal Property Operating Guide; and (j) NARA 236-1, Inventory of
Government Accountable and Sensitive Property.

To accomplish our objectives we did the following:

   •   Judgmentally selected a sample of NARA owned photocopiers and performed
       research to determine if a hard drive was installed;
   •   Reviewed disposal and excess property documents from 2005 through 2010 and
       made inquiries with vendors to determine if the model had the capability of
       having a hard drive;
   •   Reviewed controls over classified photocopiers;
   •   Reviewed photocopier contracts;
   •   Held discussions with NARA employees and officials within the Office of
       General Council (NGC), Office of Administration (NA), Office of Acquisition
       Services (NAA), Facilities and Personal Property Management Division (NAF),
       Office of Information Services (NH), and the Office of Regional Records Services
       (NR);
   •   Reviewed all network printers to identify those with hard drives.

Our audit work was performed between July 2010 and October 2010. We conducted this
performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.
                                        Page 6
                     National Archives and Records Administration
                                                            OIG Audit Report No. 11-07


Audit Results

1. Accountability and controls over photocopier inventory and
   disposals require improvement
NARA lacks appropriate accountability and adequate management controls to ensure all
photocopiers across the agency are accounted for and that any hard drives residing on
these machines are tracked and properly sanitized or destroyed prior to disposal.
Specifically our audit disclosed: (1) no complete agency-wide inventory of copiers exist,
(2) copiers containing hard drives have not been identified, (3) copier purpose and use
have not been identified, and (4) disposal protocols were not adequate. These conditions
exist because no group has been assigned responsibility for tracking all photocopiers
across the agency and ensuring that any photocopiers containing hard drives are properly
sanitized prior to disposal. According to NARA’s IT Security Methodology for Media
Protection Policy version 5.1, NARA must sanitize or destroy information system media
before disposal or release for reuse. In addition, NARA Directive 1608 Protection of
Personally Identifiable Information (PII) defines the rules to protect PII from
unauthorized disclosure and emphasizes the role of NARA users in ensuring appropriate
safeguards are in place to protect all NARA systems containing PII. Furthermore,
according to NARA 236-1 Inventory of Government Accountable and Sensitive Property
and NARA 241 NARA Personal Property Operating Guide, accountable property
includes borrowed or leased property as well as property having a unit cost of $3,000 or
more. Accountable property must be tracked and accounted for in the NARA Personal
Property Management System. As a result of the lack of accountability and controls,
NARA is at risk of inappropriate release of sensitive information and PII data.

During the course of our review, we interviewed management to determine who was
responsible for accounting for, tracking, and disposing of all photocopiers across the
agency. No one office claimed responsibility. The Acting Assistant Archivist of NA
stated that a complete listing of all photocopiers and related hard drives is just not
maintained. A property management officer within NAF stated that leased photocopiers
are not considered accountable property and therefore they are not tracked and that hard
drive information was also not tracked by NAF. The Director of NAA indicated that
NAA did not have a complete listing of all photocopiers across the agency because some
offices procure photocopiers without going through NAA. He also stated that NAA
would not be responsible for maintaining such a list. The Acting Chief Information
Officer stated that since photocopiers are not considered computer equipment, they were
not responsible for the disposition of them. However, he stated that NH’s disposition
policies for hard drives may apply. NGC also stated that they are not responsible for
tracking this information. Although, NGC has recently taken on efforts to ensure
photocopier contracts include the appropriate security language, they have not attempted
to identify individual photocopiers with hard drives to ensure the correct procedures are
followed when disposing of them.

                                        Page 7
                     National Archives and Records Administration
                                                             OIG Audit Report No. 11-07


Additionally, we also discussed the condition noted above with General Counsel and the
Acting Assistant Archivist for NA. Both agreed that the weaknesses cited represent
security vulnerabilities that needed management’s attention to ensure appropriate controls
are identified and put in place to mitigate the risk of potential exposure.

Without adequate accountability and controls, there is an increased risk of exposure of
PII or sensitive information that could leave NARA vulnerable.

No complete agency-wide inventory of photocopiers exist

There is no complete accurate inventory of photocopiers across the agency and no one
office is assigned responsibility to maintain and track such an inventory. The OIG
attempted to get a complete photocopier listing containing all photocopiers across the
agency (owned and leased) from NAF and NAA and was not able to obtain a complete
accurate list. NAF maintains a list of 144 leased photocopiers located within the
Archives I, Archives II, St Louis, and Suitland offices and a list of 119 owned
photocopiers across the agency. However, these lists do not represent a complete
inventory of all photocopiers (leased and owned) across the agency.

When we asked whether a list of leased photocopiers in all offices existed, we were told
that leased copiers are not accountable property and therefore not inventoried or in the
property management system. However, according to NARA 236-1 Inventory of
Government Accountable and Sensitive Property and NARA 241 Personal Property
Operating Guide, accountable property includes borrowed or leased property as well as
property having a unit cost of $3,000 or more. Accountable property must be tracked and
accounted for in the NARA Personal Property Management System. We discussed this
with the property management officer within NAF who agreed that leased photocopiers
should be tracked.

NAF management maintains a list of 119 owned photocopiers across the agency in the
PPMS system. However, through discussions and contact with various NARA personnel
and offices we identified at least six additional NARA owned photocopiers that were not
on the NAF list (see below). All six machines had an acquisition cost of $3,000 or more
and according to NARA 236-1 and 241 they should have been tracked and accounted for
in the NARA Personal Property Management System.


                                                                                 Acquisition
Copier Make              Serial Number                 Location                  Cost
Cannon IR5000            MPL62529                      Morrow                    $3,286.56
Cannon IR5000            MPL09414                      Morrow                    $3,000.00
                                                       Atlanta Federal
Cannon IR3300            MRJ03267                      Records Center             $3,166.68
                                                       Atlanta Federal
Cannon IR4570            SKU1895                       Records Center             $3,868.32
                                        Page 8
                     National Archives and Records Administration
                                                             OIG Audit Report No. 11-07


Canon IR 3300G            MRJ02983                      Carter Library             $6,709.43
Konica/Minolta
bizhub C550               A00J011000421                 Bush Library               $11,364.30


Photocopiers containing hard drives have not been identified

Neither the list of owned photocopiers nor the list of leased photocopiers obtained from
NAF identified photocopiers with hard drives. We requested this information from NAF
and were told this information was not known because no one was keeping track of it. To
identify whether any of the photocopiers had a hard drive installed, we took a sample of
69 photocopiers from the list of 119 owned photocopiers acquired since 2005. We made
inquiries with the photocopier manufacturers to determine if the photocopiers had hard
drives. We gave the manufacturers the make, model, and serial number to identify if the
specific model had a hard drive installed on it. In addition, we obtained information from
the NARA regional and library offices on leased or owned photocopiers with hard drives.
Our analysis revealed a total of 34 photocopiers currently at NARA (both leased and
owned) that have a hard drive installed on them. One of the 34 photocopiers identified as
having a hard drive is used for classified reproduction (See appendix A). We could not be
reasonably sure that this is a complete listing of all photocopiers across the agency that
contains hard drives since there is no tracking of all photocopiers across the agency.

Without having a complete list of all photocopiers across the agency and whether they
contain a hard drive, NARA is lacking the administrative safeguards to protect PII that
may reside on photocopiers hard drives.

Photocopier purpose and use have not been identified

The lists of owned and leased photocopiers we obtained from NAF did not indicate
whether the photocopiers were used for classified or general copying. This would be of
importance to NAS since they are responsible for tracking classified information. The
lists did not document where classified photocopiers were located and who was
responsible for them. There are additional controls and security measures that are to be in
place for classified photocopiers. Specifically the following additional controls and
security measures are required.

   •   Classified reproduction equipment must be located in a secure area or, access
       must be restricted while copying is in progress.
   •   All machines used for classified reproduction should incorporate as many security
       design features as possible (e.g., lock, copy counter, removable hard drives,
       encryption of data prior to being stored in memory and on hard drive, all memory
       automatically cleared after copy).
   •   Photocopiers located outside of secure areas that are authorized for classified
       reproduction must not have hard drives or the capacity to retain memory or
       images.

                                        Page 9
                     National Archives and Records Administration
                                                             OIG Audit Report No. 11-07


   •   Classified photocopiers must be sanitized before allowing maintenance personnel
       access to the machine. Copier maintenance personnel must be escorted and
       closely monitored by appropriately cleared NARA staff whenever they service
       equipment authorized for classified reproduction.

Without this information, management cannot perform appropriate oversight to properly
track photocopiers and ensure that appropriate controls are being implemented over them.

Disposal protocols for photocopiers were not adequate
Photocopier disposals are not adequately tracked and documented and NARA did not
ensure that hard drives on excessed photocopiers were sanitized prior to disposal. Based
on our audit work, we identified that photocopiers have been disposed of in the last five
years which had the potential of having a hard drive installed on them.

The OIG obtained 17 excess property and destruction reports from the requested period
of 2005 through 2010 to determine if any photocopiers disposed contained a hard drive.
Excess property and destruction reports were not filed in one central location or
sequentially. Some were filed in boxes and some online using the Standard Form 120.
Additionally these forms in some cases were either filled out inaccurately or were
incomplete. None of the forms indicated whether the photocopier being excessed
contained a hard drive and whether the hard drive was sanitized. Therefore, we
concluded that photocopier disposals are not adequately tracked and we could not be
reasonably certain that we obtained a complete listing of all photocopier disposals within
the last five years.

We made inquiries with the photocopier manufacturers to determine if any of the
photocopiers listed on those excess reports had a hard drive. We gave them the make and
model to identify if the specific model had the capability of having a hard drive installed
on it. Of the 39 photocopiers that were disposed of during this time frame by the agency,
there were 19 photocopiers with the potential of having a hard drive installed on them
(see below). There was no documentation available to ascertain whether hard drives were
in fact installed on these machines or that hard drives were removed and sanitized or
destroyed prior to disposal.

   SF 120 Report             Disposition
      Number                    date                    Make/Model                     Quantity
473067-5119                5/3/2005          Cannon 1150                               1
473067-6047-0001           2/16/2006         Xerox 230DC                               14
473067-6047-0001           2/16/2006         Xerox 220DC                               1
473067-6348                12/15/2006        Xerox 220DC                               1
473067-6356                1/8/2007          Xerox 220DC                               1
883101-8212-0080           7/25/2008         Cannon IR400S                             1
                                             Total                                     19


                                        Page 10
                     National Archives and Records Administration
                                                               OIG Audit Report No. 11-07


Additionally, excess property reports were not always filled out properly. In seven
instances the photocopier make and/or model information was not documented on the
form, in two instances the model identified was not a photocopier, and in two instances
the make and model were recorded incorrectly and the vendor was not able to locate the
information needed to perform the audit test.

According to NARA’s IT Security Methodology for Media Protection Policy version 5.1,
NARA must sanitize or destroy information system media before disposal or release for
reuse.

NARA Directive 1608 Protection of Personally Identifiable Information (PII) defines the
rules to protect PII from unauthorized disclosure and emphasizes the role of NARA users
in ensuring that the appropriate safeguards are in place to protect all NARA systems
containing PII. This directive applies to PII in any form or format which would cover PII
residing on a hard drive or memory of a photocopier. Physical and technical safeguards
that must be in place according to this directive include the following listed below.

 - Encryption of data on external hard drives and properly protected when being
transmitted outside the agency.

- Destruction of materials containing PII by shredding, burning, deleting, or other
authorized destruction method that ensures the data or record is unreadable or
unrecoverable.

Without proper protocols to identify photocopiers with hard drives and ensuring that
those hard drives are properly sanitized prior to disposal, there is the risk that hard drives
containing PII or classified information could have been exposed leaving NARA
vulnerable.

Recommendation 1

The Assistant Archivist for Administration should improve the inventory over
photocopiers to:
   a) Include all photocopiers across the agency (owned and leased); and
   b) Identify those photocopiers with hard drives, whether they are used for general or
       classified copying, and when they are disposed.

Recommendation 2

The Assistant Archivist for Administration should assign responsibility to one group to
oversee management, tracking, and disposal of photocopiers.

In addition, Assistant Archivist for Administration should assign NAA to consolidate the
acquisition of photocopiers into one or few contracts to ensure better management of
them and to potentially reduce costs,


                                         Page 11
                      National Archives and Records Administration
                                                             OIG Audit Report No. 11-07


Recommendation 3

The Assistant Archivist for Administration should ensure that documentation of
photocopier disposals include accurate information on the make and model and also
identify whether the unit had a hard drive. If a hard drive is present, documentation
should include the method of sanitization. In addition, this information should be kept in
a central location.

Recommendation 4

The Assistant Archivist for Administration should implement a policy that photocopier
acquisitions do not include hard drives unless a valid business case is presented
specifying the need to have one.

Management Response

Management concurred with the recommendations.




                                        Page 12
                     National Archives and Records Administration
                                                             OIG Audit Report No. 11-07


2. There are no policy and procedures describing security
   measures to be taken for general use photocopiers and
   disposal of photocopiers containing a hard drive
There are no documented policies describing security measures to be taken for
photocopiers utilized for general use, nor are there procedures to ensure that photocopier
hard drives are sanitized or destroyed prior to disposal or at the end of the lease term.
Management has not developed policies and procedures in these areas because
accountability for this area has not been assigned to any office. In addition, security
concerns over photocopier hard drives have recently emerged and management had not
made this a priority. Furthermore, NARA has focused on ensuring photocopier contract
language is updated rather than ensuring day to day procedures for photocopier use are
created and implemented. The Government Accountability Office (GAO) requires
managers to develop detailed policies and procedures, and to ensure the policies and
procedures are an integral part of agency operations. In addition, the Privacy Act
requires each agency to establish administrative and technical safeguards to insure the
security and confidentiality of records and to protect against any anticipated threats.
Lack of effective policies and procedures increase the risk that photocopier hard drives
are not adequately secured and safeguarded and increase the risk of exposure of PII or
classified information.

There are no documented procedures or policies in place for photocopiers for general use.
NARA does have a policy containing guidelines for copying classified information which
provides guidance including security measures for photocopiers used for the reproduction
of classified material. However, no guidance has been developed for photocopiers used
for general use. Thus, there is no restriction on copying items containing sensitive
information such as PII on these photocopiers. Most Human Resources forms, initial
travel forms, and background investigation forms contain a social security number and
other PII information. Many times these forms are photocopied on a general use
photocopier prior to submission to the appropriate department. Additionally, the
receiving departments also make copies of these documents using a general use
photocopier.

 NARA also has guidance addressing the disposal of personal property and the disposal
of hard drives regardless of the source. However, there are no procedures specifically
addressing how to (1) dispose of photocopiers, (2) remove the hard drives, or (3)
ensure that photocopier hard drives are sanitized or destroyed prior to disposal or at the
end of the lease term. As a result, confusion exists regarding what to do when a
photocopier is ready for disposal. We interviewed several employees who stated that they
were unsure of what to do with photocopiers at the end of their useful life. For example
one employee in NAF stated that there were 2 copiers in the warehouse "cage" ready to
be excessed and he was not sure if there were hard drives in them. In addition, he was not
sure how to retrieve the hard drive, what to do with it if there was one, and who was
responsible for destroying the hard drive. In another example, an employee in the Center
for Legislative Archives (NWL) was not sure how to dispose of an old classified
                                        Page 13
                     National Archives and Records Administration
                                                               OIG Audit Report No. 11-07


photocopier properly. There is no guidance to direct NARA employees on how to
properly dispose of these items. These examples further validate the need for procedures
to be documented and communicated to all NARA employees.

We interviewed the Acting Assistant Archivist of NA and the General Counsel in NGC
and both agreed that procedures need to be developed in these areas to ensure that the
proper steps are taken to protect PII, classified, or other sensitive information residing on
photocopier hard drives.

GAO’s Standards for Internal Control in the Federal Government states, management is
responsible for developing the detailed policies, procedures, and practices to fit their
agency’s operations and to ensure that they are built into and an integral part of
operations. Information should be recorded and communicated to management and others
within the entity, who need it, and in a form and within a time frame, which enables them
to carry out their internal control and other responsibilities.

Lack of policies and procedures increase the risk that vulnerable assets are not adequately
secured and safeguarded and increase the risk of exposure of PII or classified information.

Recommendation 5

The Assistant Archivist of Administration should create a policy for security measures to
be taken for all photocopiers across the agency similar to the policy used for classified
photocopiers.

Recommendation 6

The Assistant Archivist of Administration should create a procedure for the disposal of
photocopiers that will dovetail into NH’s Asset Management Team Media Tracking and
Disposal Plan. The following items should be included in the procedures:

   •   How the photocopier hard drive should be removed or who to contact to get it
       removed;
   •   Where and how to send the hard drive;
   •   Evidence should be kept to document when it was removed, where it was sent,
       who received it, when it was destroyed and method of destruction;
   •   Who maintains responsibility for ensuring this procedure is implemented

This procedure should be reviewed by NA program offices as well as NH. Finally
updated procedures should be posted on-line for easy reference by NARA staff.

Management Response

Management concurred with the recommendations.


                                         Page 14
                      National Archives and Records Administration
                                                                     OIG Audit Report No. 11-07


3. Security language missing from photocopier contracts
Photocopier lease agreements and contracts do not include a “keep disk” or similar clause
as required by NARA’s IT Security Methodology for Media Protection Policy version
5.1. NARA did not comply with its own policy to mitigate the risks posed by potential
exposure of sensitive information in the event a photocopier is in the possession of a
vendor or is being replaced, disposed, or turned in after the expiration of the lease term.
NARA’s IT Security Methodology for Media Protection Policy version 5.1 "Media
Sanitization" states that contracts are required to include a "keep disk" clause or similar
option in order to protect NARA from the risk of PII contained on hard drives from being
exposed. While there have been no known security breaches, there is the risk of exposing
sensitive information to unauthorized individuals.

In May 2010, NGC began efforts to identify photocopier contracts and agreements across
the agency in order to update them to include appropriate security language. According
to NGC, photocopier contracts (whether they have a hard drive or not) are being modified
to contain a "keep disk" clause in accordance with section 6 of NARA's IT Security
Methodology for Media Protection Policy version 5.1. NGC developed language for a
“keep disk” clause to be included in these agreements and contracts. The clause states:

        “In accordance with NARA policy, NARA will take title to all electronic storage
        devices, including but not limited to hard drives that may contain Personally
        Identifiable Information (PII). NARA will not allow the removal of any electronic
        storage device that may contain PII data from its facilities by a contractor,
        including individuals performing maintenance on equipment, devices or systems.
        This provision applies even in the event the equipment is leased. NARA will
        handle the destruction of this hardware internally. This provision must flow down
        to all subcontracts, including those for maintenance.

        If the Vendor comes into possession of an electronic storage device that may
        contain PII, the Vendor will immediately notify the Contracting Officer and return
        the electronic storage device to NARA. Vendor will protect the confidentiality of
        the electronic storage device and will not access, disclose, release, disseminate,
        or publish any of the information on the electronic storage device.”

NGC identified and is maintaining a list of 79 lease agreements and purchase documents
obtained from a PRISM 2 search as well as by contacting regional and library offices. As
of the end of our fieldwork, only 15 of the 79 lease agreements and purchase documents
have been modified. This is due to management waiting on vendors to respond to the
request to update the contracts and management not having all pertinent information
needed to get contracts updated. Of the 79 lease agreements and purchase documents, 15
are for photocopiers that do not have hard drives. So this leaves 49 contracts that have yet
to be modified which leaves the agency at risk for exposure of PII or

2
 PRISM is the automated procurement system. NAA uses this application to administer contract awards
and maintain purchase information. The application is accessed via the NARANET network.
                                           Page 15
                        National Archives and Records Administration
                                                            OIG Audit Report No. 11-07


classified information if hard drives remain the property of the vendor. Furthermore, no
action has been initiated on 26 of the 79 agreements because NGC is not aware of who
the contract officer is for most of these agreements. Per conversation with NGC, these
contracts may not be active and they would need the assistance of NAA in order to
determine the status and who would be responsible for updating the contract. Since there
is no tracking of all photocopiers in a central location, management cannot be reasonably
certain that they have a complete listing of all photocopier leases and contracts, and
therefore cannot be sure all photocopier contracts and lease agreements will be updated.


Recommendation 7

The Assistant Archivist of NA with assistance from the General Counsel should

   a) Work with NAA and NAF to get a complete list of all photocopier contracts and
      agreements to ensure all get updated to include the appropriate security language;
   b) Continue to review and update all photocopier agreements and contracts to
      include the proper security clause; and
   c) Work with NAA to determine the status of the 26 agreements and initiate action
      to get them modified if necessary.

Management Response

Management concurred with the recommendation.




                                        Page 16
                     National Archives and Records Administration
                                                                                        OIG Audit Report No. 11-07


Appendix A – Photocopiers With Hard Drives

 #    Copier Make                              Serial Number   Location                         Own or Lease
 1    Xerox WCP35                              MYP-002285      Clinton Library                  Own
 2    Xerox WCP32/40                           KMM-002591      Clinton Library                  Own
 3    Xerox CC/WCP35                           MYP-002649      Clinton Library                  Own
 4    Xerox Bookmark 40                        LBD001186N      Kennedy Library                  Own
 5    KYOCERA KM3060                           UYE8600040      Military Record Center           Own
 6    KYOCERA KM3060                           UYE8600038      ST Louis                         Own
 7    RICOH AFICO 1035G                        H7720401218     Morrow                           Own
 8    KYOCERA KM3050                           UPV7300055      Military Record Center           Own
 9    KYOCERA KM3050                           UPV7300062      Military Record Center           Own
 10   KYOCERA KM3050                           UPV7200034      Military Record Center           Own
 11   KYOCERA KM3050                           UPV7300076      Military Record Center           Own
 12   KYOCERA KM3050                           UPV7300054      Military Record Center           Own
 13   Panasonic DPC262                         DEG44H00028     Eisenhower Library               Own
 14   KYOCERA KM3035                           AJK3016350      Military Record Center           Own
 15   KYOCERA KM4035                           AJL3016677      Military Record Center           Own
 16   Cannon IR5000                            MPL62529        Morrow                           Lease
 17   Cannon IR5000                            MPL09414        Morrow                           Lease
 18   Cannon IR5020                            JCT18197        Atlanta Federal Records Center   Own
 19   Cannon IR5020                            JCT18112        Atlanta Federal Records Center   Own
 20   Cannon IR3300                            MRJ02070        Atlanta Federal Records Center   Own
 21   Cannon IR3300                            MRJ03267        Atlanta Federal Records Center   Own
 22   Cannon IR4570                            SKU1895         Atlanta Federal Records Center   Own
 23   Ricoh Aficio 1035G                       H7011200327     Morrow                           Own
 24   OCE digital Copier 3165                  166061658       Atlanta Federal Records Center   Own
 25   Konica Minolta 500/501, machine 13468 A0R5011004757      Philadelphia                     Lease
 26   Konica Minolta 200/350, machine 13469; ( 31139718        Philadelphia                     Lease
 27   Konica Minolat 200/350, machine 13467; (131139684        Philadelphia                     Lease
 28   Canon Image Runner 3300G                 MRJ02983        Carter Library                   Own
 29   Canon Image Runner 3300G                 MPH66494        Carter Library                   Own
 30   Xerox CC232HG                         URT158166          Carter Library                   Lease          Classified
 31   Sharp MX-2700N                        90000472           Carter Library                   Lease
 32   Sharp AR-M620N                        4AB00381           Reagan Library                   Lease
 33   Konica Minolta CF3102                 3129216            Philadelphia                     Own
 34   OCE 3165                              1660603319         Philadelphia                     Own




                                                   Page 17
                                National Archives and Records Administration
                                                 OIG Audit Report No. 11-07


Appendix B - Standard Form 120- Excess Property
Report




                               Page 18
            National Archives and Records Administration
                                                   OIG Audit Report No. 11-07


Appendix C - Acronyms and Abbreviations

GAO     Government Accountability Office
NARA    National Archives and Records Administration
OIG     Office of Inspector General
PII     Personally Identifiable Information
NGC     Office of General Counsel
NA      Office of Administration
NAA     Acquisition Services Division
NL      Office of Presidential Libraries
NR      Office of Regional Records Services
NH      Office of Information Services
NHT     Information Technology Services Division
NAF     Facilities and Personal Property Management Division
NWL     Center for Legislative Archives




                                 Page 19
              National Archives and Records Administration
                                                 OIG Audit Report No. 11-07


Appendix D - Management’s Response to the Report




                               Page 20
            National Archives and Records Administration
                                                         OIG Audit Report No. 11-07


Appendix E - Report Distribution List

Archivist of the United States
Deputy Archivist of the United States
Assistant Archivist, Office of Administration (NA)
Chief of Staff
Management Control Liaison, Policy and Planning (NPOL)
Office of General Counsel (NGC)




                                      Page 21
                   National Archives and Records Administration
